           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     SOCIAL SECURITY CARDS
  MAILED TO THE SOCIAL SECURITY
   ADMINISTRATION’S FIELD OFFICES

    August 2008    A-09-07-27154




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      August 19, 2008                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Cards Mailed to the Social Security Administration’s Field Offices
           (A-09-07-27154)


           OBJECTIVE
           Our objective was to evaluate the Social Security Administration's (SSA) controls over
           the receipt, safeguarding, and disposition of Social Security cards mailed to its field
           offices (FO).

           BACKGROUND
           In Fiscal Year (FY) 2007, SSA processed approximately 17.4 million applications
           for Social Security cards: about 11.7 million replacement Social Security cards and
           5.7 million original Social Security cards. 1 SSA generally mails Social Security cards to
           the address where the applicant resides. Occasionally, applicants may request to pick
           up their card at an FO. 2 Specifically, applicants who plan to relocate but do not have a
           forwarding address, are homeless, or have experienced problems receiving mail may
           have their Social Security cards mailed to an FO. Any cards mailed to an SSA office
           should be addressed directly to the FO manager. 3




           1
             SSA, Social Security Unified Measurement System, Performance Report, Enumeration, Replacement
           and Original Social Security Numbers by Citizen and Alien Categories, National Report, FY 2007.
           2
               SSA, Program Operations Manual System (POMS), RM 00202.110.
           3
               Id.
Page 2 - The Commissioner

We identified 20,362 Social Security cards that were mailed to FOs in the United States
and District of Columbia in FY 2007. 4 We evaluated the adequacy of SSA’s policies
and procedures by reviewing the FO with the highest number of cards mailed to the
office in each of SSA’s 10 regions. These FOs received 5,740 Social Security cards in
FY 2007.

RESULTS OF REVIEW
SSA needs to strengthen its controls over the receipt, safeguarding, and disposition of
Social Security cards mailed to its FOs. Of the 10 FOs selected for review, we found
that

•   9 did not have formal, written policies to ensure proper receipt, control, and
    disposition of Social Security cards mailed to the office;

•   7 did not maintain logs to determine whether Social Security cards were received in
    the mail, picked up by the applicant, or destroyed by the office;

•   5 did not ensure Social Security cards were properly secured at all times; and

•   10 did not always address Social Security cards to the FO manager, as required.

As a result, the Social Security cards mailed to FOs may have been susceptible to loss
or theft. This occurred, in part, because (1) SSA’s policies did not provide national
guidance for securing, monitoring, tracking, or, if necessary, destroying Social Security
cards received in the mail and (2) FOs were not fully aware that Social Security cards
mailed to the office should be addressed to the FO manager.

LACK OF FORMAL POLICIES AND PROCEDURES

We found that 9 of 10 FOs did not have formal, written policies and procedures to
ensure proper receipt, safeguarding, and disposition of Social Security cards mailed
to the office (see Appendix B). Although the FOs had generally developed informal
guidelines for handing Social Security cards received in the mail, we found the lack of
formal policies and procedures had resulted in inconsistent practices between the FOs.
We believe national guidance is necessary to ensure Social Security cards are properly
controlled and safeguarded at all FOs.




4
 We excluded Social Security cards that were mailed to (1) Social Security Card Centers in Brooklyn,
New York, Queens, New York and Las Vegas, Nevada and (2) FOs in U.S. territories of Puerto Rico,
Guam, American Samoa, and the Northern Mariana Islands.
Page 3 - The Commissioner

Although SSA’s policies require that detailed records be maintained for claimant checks
mailed to an FO, 5 they do not provide national guidance for securing, monitoring,
tracking, or, if necessary, destroying Social Security cards mailed to FOs.

As a result of a prior OIG audit, 6 one regional office issued written instructions to its FOs
to implement new procedures for the receipt, control, and disposition of Social Security
cards mailed to the office. 7 In addition, during our review, two FOs issued written
instructions to improve controls over the handling of Social Security cards.

We also identified inconsistent practices between the FOs. For example, some FOs
retained unclaimed Social Security cards for about 30 days while other FOs retained
them for up to 8 months. In addition, one FO required that applicants sign a form
when they picked up their cards while the remaining nine FOs did not obtain any written
acknowledgment. Therefore, we encourage SSA to develop national policies and
procedures to ensure uniformity in FO practices for processing Social Security cards
mailed to the office.

RECEIPT AND DISPOSITION OF SOCIAL SECURITY CARDS NOT LOGGED

We found that 7 of 10 FOs did not maintain logs to account for the receipt and
disposition of Social Security cards mailed to the office (see Appendix B). In addition,
two FOs only retained partial logs of the Social Security cards the FO either received or
destroyed. Unless written records are properly maintained and retained, FOs may be
ill-equipped to determine whether the Social Security cards were received in the mail,
picked up by the applicant, or destroyed by the office.

As a result of a prior OIG audit, one regional office developed a log for its FOs to record
the date each Social Security card is received, name and Social Security number (SSN)
on the card, date the card is picked up, name of management official releasing the card
to the applicant, and date the card is shredded, if not picked up within 30 days. 8

During our review, two FOs developed logs to account for the receipt and disposition
of Social Security cards received in the mail. Another two FOs revised their existing
logs—one included the date of disposition for all Social Security cards received while
the other included the date of the SSN application and extended the retention period
from 30 days to 3 years. Other FOs generally believed a log was an effective tool for
monitoring and controlling Social Security cards, especially since a log is also used for
claimant checks mailed to the office.


5
    SSA, POMS, GN 02401.050.F.
6
    Las Vegas Social Security Card Center, February 2007.
7
    SSA, Regional Memorandum No. F-06-019, September 12, 2006.
8
    Id.
Page 4 - The Commissioner

Of the 5,740 Social Security cards mailed to the 10 FOs in our sample in FY 2007,
we selected the 50 most recent Social Security cards mailed to each FO as
of September 30, 2007. We found FOs were unable to provide logs or other
written records to support the receipt and disposition of 437 (87.4 percent) of the
500 Social Security cards in our sample (see Appendix D). Although the FOs
did not report any instances of loss or theft, we believe they should retain written
documentation to substantiate whether the Social Security cards were received,
picked up, or destroyed.

STORAGE OF SOCIAL SECURITY CARDS COULD BE IMPROVED

We found that 5 of 10 FOs did not properly secure Social Security cards at all
times (see Appendix B). Based on our interviews, these FOs stored the cards in a
locked cabinet or drawer only at the end of the day. In addition, one FO placed the
Social Security cards in a locked file cabinet during the day; however, all employees
had unrestricted access to the key. Unless the cards are properly safeguarded at all
times, there is an increased risk of SSN misuse, unauthorized disclosure, and identity
theft.

As a result of a prior OIG audit, one regional office issued written instructions that
stated all Social Security cards held in the FO should be secured in a locked file
cabinet. 9 In addition, SSA’s policies require that FOs store any Social Security cards
that are returned to the office and cannot be immediately destroyed in a locked cabinet
or drawer. 10 We believe this policy should be adopted for all cards held in the FO.

For example, one FO stored its Social Security cards on an open rack on the
Operations Supervisor’s desk during the day. The District Manager stated the rack
allowed all employees to readily retrieve the cards when applicants visited the office
to pick them up. However, to provide adequate safeguards over the Social Security
cards mailed to the office, we believe FOs should restrict access to the cards and
secure them in a locked cabinet or drawer at all times.




9
     Regional Memorandum No. F-06-019, September 12, 2006.
10
     SSA, POMS, RM 00201.080.B.1.
Page 5 - The Commissioner

SOCIAL SECURITY CARDS NOT PROPERLY ADDRESSED

We found that none of the 10 FOs always ensured Social Security cards mailed to the
office were addressed to the FO manager, as required (see Appendix B). This occurred
because eight FOs were not fully aware that Social Security cards mailed to the office
should be addressed to the FO manager. Instead, they entered the FO’s mailing
address without a “care of” or “attention” heading. The remaining two FOs were aware
of the requirement but inadvertently entered incorrect addresses because of clerical
errors.

SSA’s policies allow applicants to pick up their Social Security cards at an SSA office
under certain circumstances. Social Security cards mailed to an SSA office should be
addressed directly to the FO manager. 11 Such a practice is necessary to establish
proper accountability and control over the cards.

As part of our review of the 50 most recent Social Security cards mailed to each
FO as of September 30, 2007, we evaluated how these cards were addressed. We
found that 443 (88.6 percent) of the 500 Social Security cards in our sample were
not addressed in accordance with SSA’s policies and procedures (see Appendix D).
During our review, FOs agreed to remind staff to properly address Social Security
cards to management officials only.

CONCLUSION AND RECOMMENDATIONS
Given the increased emphasis on the protection of personally identifiable information
and the prevalence of identity theft, SSA needs to strengthen its controls and
procedures over the Social Security cards mailed to its FOs. We found that FOs
did not always (1) have formal, written policies for the receipt and disposition of
Social Security cards; (2) maintain logs to determine whether the cards were received,
picked up, or destroyed; (3) ensure cards were properly secured at all times; and
(4) address cards to the FO manager. As a result, the Social Security cards mailed
to FOs may be susceptible to loss or theft. Therefore, we recommend that SSA:

1. Develop formal, written policies and procedures over the receipt, safeguarding, and
   disposition of Social Security cards mailed to its FOs.

2. Direct FOs to maintain a log to account for the receipt and disposition of
   Social Security cards received in the mail.




11
     SSA, POMS, RM 00202.110.B.2.
Page 6 - The Commissioner

3. Instruct FOs to properly secure Social Security cards (for example, in a locked
   cabinet or drawer) at all times.

4. Implement controls to ensure Social Security cards mailed to the office are
   addressed to management officials.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix E for the text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Summary of Field Office Results

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
FO     Field Office
FY     Fiscal Year
MES    Modernized Enumeration System
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
SSN    Social Security Number
                                                                                          Appendix B

Summary of Field Office Results
                                                      Receipt and          Storage of           Social Security
                               Lack of Formal         Disposition        Social Security          Cards Not
                                Policies and           of Cards           Cards Could              Properly
        Field Office            Procedures            Not Logged          Be Improved            Addressed

    Hyannis, MA                                                                                    

    Rio Grande, NJ                                                                                  
                                                            1, 4
    Salisbury, MD                                                                                    
                                                                                  2
    Panama City, FL                                                                                 3

    Minneapolis, MN                    4                   4                   4                   

    Oklahoma City, OK                  4                    5
                                                                                                     

    Kansas City, MO                                                                                 

    Denver, CO                                             4                                       

    San Diego, CA                                                                                    3

    Seattle, WA                                                                                     

    Total                              9                     7                   5                    10




1
    The field office retained a partial log of Social Security cards destroyed by the office.
2
    Social Security cards were locked during the day, but all employees had access to the key.
3
    Social Security cards were not always addressed to the field office manager because of clerical errors.
4
    The field office initiated corrective action during our review.
5
    The field office retained a partial log of Social Security cards received by the office.
                                                                                 Appendix C

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System (MES) of Social Security cards that were mailed to its field offices
(FO) between October 1, 2006 and September 30, 2007. Using this data extract, we
identified a population of 20,362 Social Security cards that were mailed to FOs in the
United States and District of Columbia. 1

From our population, we reviewed the FO with the highest number of Social Security
cards mailed to the office in each of SSA’s 10 regions in Fiscal Year (FY) 2007.
Specifically, we evaluated the adequacy of SSA’s policies and procedures over the
receipt and disposition of Social Security cards mailed to its FOs. The following table
provides a breakdown of the FOs selected for review, along with the number of cards
mailed to the office during FY 2007:

         SSA Region                        Field Office                  Social Security Cards
         Boston, MA                        Hyannis, MA                             281
        New York, NY                     Rio Grande, NJ                             77
       Philadelphia, PA                   Salisbury, MD                          2,887
         Atlanta, GA                     Panama City, FL                           763
         Chicago, IL                     Minneapolis, MN                           424
          Dallas, TX                    Oklahoma City, OK                           81
       Kansas City, MO                   Kansas City, MO                           180
         Denver, CO                        Denver, CO                              481
      San Francisco, CA                   San Diego, CA                            363
         Seattle, WA                       Seattle, WA                             203
             Total                                                               5,740

To accomplish our objective, we

•   reviewed SSA’s Program Operations Manual System and other policy
    memorandums;

•   interviewed employees from SSA’s Headquarters, 10 regional offices, and 10 FOs to
    obtain information about its policies and procedures over the receipt, safeguarding,
    and disposition of Social Security cards addressed to FOs;



1
 We excluded Social Security cards that were mailed to (1) Social Security Card Centers in Brooklyn,
New York, Queens, New York and Las Vegas, Nevada and (2) FOs in U.S. territories of Puerto Rico,
Guam, American Samoa, and the Northern Mariana Islands.


                                                 C-1
•   for each FO, selected the 50 most recent Social Security cards mailed to the office
    as of September 30, 2007; and

•   determined whether the Social Security cards were properly addressed, secured,
    received, picked up, or destroyed.

We determined the computer-processed data from the MES were sufficiently reliable for
our intended use. Our work was conducted at 10 SSA FOs between January and
March 2008. The entity reviewed was the Office of the Deputy Commissioner for
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          C-2
                                                                                       Appendix D

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Modernized Enumeration System,
we obtained a data extract of Social Security cards that were mailed to its field offices
(FO) in Fiscal Year (FY) 2007. We identified a population of 20,362 Social Security
cards that were mailed to FOs in the United States and District of Columbia. 1

From our population, we reviewed the FO with the highest number of Social Security
cards mailed to the office in each of SSA’s 10 regions. A total of 5,740 cards were
mailed to these FOs in FY 2007. We selected a total of 500 Social Security cards to
evaluate the adequacy of SSA’s policies and procedures. Specifically, for each FO,
we selected the 50 most recent cards mailed to the office as of September 30, 2007.

Based on our interviews, we found that FOs were unable to provide logs or other
written records to support the receipt and disposition of 437 (87.4 percent) of the
500 Social Security cards in our sample. In addition, we found that 443 (88.6 percent)
of the 500 Social Security cards in our sample were not addressed in accordance with
SSA’s policies and procedures. The following tables provide the details of our sample
results.

Table 1 – Receipt and Disposition of Social Security Cards Not Logged

                                                                                           Cards Not
          Field Office                 Population                  Sample                   Logged
    Hyannis, MA                            281                       50                        50
    Rio Grande, NJ                          77                       50                        50
    Salisbury, MD 2                      2,887                       50                        37
    Panama City, FL                        763                       50                        50
    Minneapolis, MN                        424                       50                        50
    Oklahoma City, OK 3                     81                       50                        50
    Kansas City, MO                        180                       50                        50
    Denver, CO                             481                       50                        50
    San Diego, CA                          363                       50                         0
    Seattle, WA                            203                       50                        50
    Total                                5,740                      500                      437


1
 We excluded Social Security cards that were mailed to (1) Social Security Card Centers in Brooklyn,
New York, Queens, New York and Las Vegas, Nevada and (2) FOs in U.S. territories of Puerto Rico,
Guam, American Samoa, and the Northern Mariana Islands.
2
    FO retained partial logs of the Social Security cards that were destroyed.
3
    FO discarded partial logs of the Social Security cards received by the office after 30 days.


                                                      D-1
Table 2 – Social Security Cards Not Properly Addressed

                                                         Cards Improperly
      Field Office         Population          Sample      Addressed
Hyannis, MA                    281               50             50
Rio Grande, NJ                  77               50             50
Salisbury, MD                2,887               50             50
Panama City, FL                763               50             13
Minneapolis, MN                424               50             50
Oklahoma City, OK               81               50             50
Kansas City, MO                180               50             50
Denver, CO                     481               50             50
San Diego, CA                  363               50             30
Seattle, WA                    203               50             50
Total                        5,740              500            443




                                        D-2
                  Appendix E

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      July 28, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Social Security Cards Mailed to the Social
           Security Administration’s Field Offices” (A-09-07-27154)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SOCIAL SECURITY CARDS MAILED TO THE SOCIAL SECURITY
ADMINISTRATION’S FIELD OFFICES” (A-09-07-27154)

Thank you for the opportunity to review and provide comments on this draft report. We are
committed to ensuring that we properly handle all Social Security cards in Field Offices (FOs) to
protect the integrity of the Social Security Number.

Recommendation 1

Develop formal, written policies and procedures over the receipt, safeguarding, and disposition
of Social Security cards mailed to its FOs.

Comment

We agree. We will develop policies and procedures over the receipt, safeguarding, and
disposition of Social Security cards mailed to our FOs. Once developed, we will distribute the
Program Operations Manual System to all employees.

Recommendation 2

Direct FOs to maintain a log to account for the receipt and disposition of Social Security cards
received in the mail.

Comment

We agree. We will include in our development of policies/procedures, outlined in
recommendation 1, guidance to ensure the importance of the control and security of Social
Security cards received in the mail. In order to balance the need for security with service
delivery concerns, we will need to make certain that the control methods are not overly
burdensome on the FOs.

Recommendation 3

Instruct FOs to properly secure Social Security cards (for example, in a locked cabinet or drawer)
at all times.

Comment

We agree. We will include in our development of the policies/procedures, outlined in
recommendation 1, instructions for FOs to properly secure Social Security cards at all times.




                                               E-2
Recommendation 4

Implement controls to ensure Social Security cards mailed to the office are addressed to
management officials.

Comment

We agree. We will release a reminder in our December 2008, Annual Security Reminders,
Administrative Message. Once the policies/procedures are in place regarding recommendations
1, 2, and 3, we will pursue adding questions covering all of these issues in our Onsite Security
Control and Audit Review guide in order to ensure compliance.




                                               E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Regina Finley, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-07-27154.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
